No.

IN THE
UNITED STATES SUPREME COURT

DANIEL L. MILES, ON OWN BEHALF AND ON BEHALF OF OTHERS AS A CLASS,
Petitioner,
v.
KRISTINE L. SVINICKI, SUCCESSOR TO STEPHEN G. BURNS, SUCCESSOR TO ALLISON M.
McFARLANE, SUCCESSOR TO GREGORY B. JACZKO, SUCCESSOR TO DALE E. KLEIN,
SUCCESSOR TO NILS J. DIAZ, CHAIRMAN, U S. NUCLEAR REGULATORY COMMISSION,
Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on July 28, 2020, three (3) copies of PETITION FOR WRIT OF
CERTIORARI in the above-captioned case were served by first class mail, postage prepaid,
as required by U.S. Supreme Court Rules 29.4(a) and 29.5(c), on the following:
Noel J. Francisco, Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217

!
'

OFFICIAL SEAL
JENNIFER MUNGER

!

NOTARY PUBLIC-STATE OF ILLINOIS i
MY COMMISSION EXPIRES: 10/16/23 I

Daniel L. Miles
Petitioner, Class Agent and
Private Attorney General
17 North Taft Ave
Hillside IL 60162
708-466-8942

